                                               OIG Report No. 08-13 





Office of Inspector General

    Audit of NARA's 

Central Receiving Function 



    OIG Report No. 08-13 


      September 29, 2008 





National Archives and Records Administration
                                                                                              OIG Report No. 08-13


Executive Summary:

The National Archives and Records Administration (NARA) Office of the Inspector
General (OIG) performed an audit ofNARA's Central Receiving Function. The
objective of the audit was to evaluate the effectiveness of controls over the central
receiving function at Archives II. Specifically, we evaluated NARA policies, oversight,
management and accountability of property received and stored at the loading dock,
storage area and warehouse components of the NARA facility located in College Park
Maryland (hereafter referred to as All). This audit report describes weak management
controls over the receiving process and warehouse operations as well as weak physical
controls on the loading dock and warehouse. Based on a 2007 inventoryl, 36 percent of
accountable IT property stored in the Office of Information Services (NH) fenced
warehouse, with an original acquisition cost of$367,439, was identified as missing.
Also, 22 percent of accountable property stored in the NARA warehouse, with an original
acquisition cost of $176,008, was identified as missing.

This audit was initiated based on an OIG investigation surrounding criminal activity by a
          ---------------- ----------------------------------------------------------------------------------
------------------------- Redacted pursuant to FOIA Exemption b( 6)----------------------------­
------------------------------------------
internal control environment which presented opportunities for theft of government
assets. In August 2007, a grand jury indicted2 ----------Redacted, b(6)-------------------- for
conspiracy arising from a scheme to embezzle almost $1 million from NARA between
July 2002 and September 2006.

Since the alleged criminal activity was identified to NARA management, NARA has
taken action to address deficiencies within the property management program. However,
we determined management controls specific to the central receiving function were still
inadequate to mitigate risk in this area. NARA management and physical security
controls remain ineffective in safeguarding and accounting for property. NARA's
policies and procedures are outdated and not aligned with the various functions
encompassing central receiving. NARA's receiving process is a manual process prone to
error. Other compensation controls such as periodic independent validation and
verification processes do not occur which could identify potential pilferage more timely.
The lack of integrated systems and processes creates an environment where property is
susceptible to loss or misappropriation with little risk of detection.

In a separate vein, the audit identified that NARA's receipt and acceptance processes do
not support the accounts payable and invoice payment processes. These control



 1 Preliminary results of the 2007 physical inventory, received in March 2008, hereafter referred to as the 2007
 inventory.
2 A grand jury indicted !;WIlf4I!i'. for these criminal activities. An indictment is not a finding of guilt. An
individual charged by indictment is presumed innocent unless and until proven guilty at some later criminal
proceedings.




                                                            1
                                    National Archives and Records Administration
                                                                           OIG Report No. 08-13


weaknesses affect the accuracy of the property and financial information used by
managers to make key agency decisions.
Property received at the loading dock meeting NARA's definition of controlled property
was properly barcoded, but controls did not provide assurance that the equipment would have
been properly recorded in NARA's property system. We found instances where delivery of
property from the loading dock to the end user was not timely. In addition, various
weaknesses in physical security controls over property at the loading dock and property in the
warehouse increase the risk of loss.

Other processes outside the central receiving function and not within the scope of this
audit such as equipment delivered by the mail room staff, government equipment
purchased by government contractors under a contract or property brought into the
building by a purchase cardholder open up the risk that government property meeting
NARA's definition of controlled property are not barcoded or subject to physical
inventory control.

We acknowledge that the Assistant Archivist for Administration directed a complete
business process review (BPR) of the entire property management function in April 2007.
A contract for the BPR was awarded in June 2008 with several deliverables by November
2008, including recommended business processes and suggested standard operating
procedures.

We made 25 recommendations which, when implemented by management, will assist the
agency in enhancing controls in the central receiving function.




                                                 2

                            National Archives and Records Administration
                                                                           OIG Report No. 08-13


Background:

Based on General Services Administration's (GSA) Federal Personal Property Desk
Reference, the Federal Personal Property Management Life Cycle consists of four phases:
Determination of Need, Acquisition of Need, Accountability & Maintainability, and
Utilization & Disposal. Our audit focuses on the central receiving piece of the
Accountability & Maintainability phase. The purpose of an agency's central receiving
function is to manage and control the personal property as it arrives at the loading dock
and to ensure it is promptly and accurately logged in, inspected, barcoded if needed, and
stored or delivered to the proper program office.

NARA contracts for services to perform all management, labor, and to provide equipment,
tools, and materials necessary to perform all aspects of material handling, loading dock
operations, and warehouse operations for the Archives II facility.

Based on the contract, the Contractor's receiving personnel must perform receipt and
inspection functions at the loading dock and receiving areas. All shipments must be
unpacked, inspected for damage, and compared with documentation to validate and verify the
accuracy of material and supplies received. If appropriate, the Contractor must prepare any
material damage reports or transportation discrepancy reports on missing or damaged items.
The Contractor must prepare documentation for shipments that do not have accompanying
documentation. For Government Property, the Contractor must:

• 	 At time of receipt place bar code labels on all accountable property values in excess of
    $3,000 or sensitive equipment, record item description, serial number, and quantity on
    GSA Form 1025, Receipt for Property or National Archives (NA) Form 5008, Transfer of
    Accountable Property, and return the signed copy to the Government; and
• 	 Maintain receiving files to include: Government bills oflading, receipt and shipping
    documentation, discrepant vendor receipts, NA Form 6032, Pick-up and Delivery
    Receipt, etc.

During fiscal years (FY) 2007 and 2008, NARA took steps to upgrade its property
management system. However, NAF continues to correct data migrated to the upgraded
property management system. In June 2007 NARA began a manual inventory process to
set a new baseline for NARA property due to changes in accountable property thresholds.
NARA continues to verify and validate the FY 2007 inventory results.

With the creation of the Federal Managers' Financial Integrity Act of 1982 along with the
Chief Financial Officers Act of 1990, the Congress determined more emphasis was
needed to ensure assets purchased with public funds were properly used and accounted
for, and at the end of their useful life were disposed of in a manner providing the most
effective return on the taxpayer's investment. Therefore the emphasis has shifted from
merely property management, to the recognition that items procured with public funds
are truly financial assets, used to further the mission of the agency, and should be handled
accordingly.



                                                 3
                            National Archives and Records Administration
                                                                          OIG Report No. 08-13


Objectives, Scope, and Methodology:

The overall objective ofthe audit was to evaluate the effectiveness of controls over the
central receiving function at Archives II. Specifically, we evaluated NARA policies,
oversight, management and accountability of property received and stored at the Archives
II loading dock, storage area and warehouse.

To accomplish our objective we:
   • 	 Reviewed relevant laws, regulations, contracts, and NARA guidance pertaining
       to the receiving functions;
   • 	 Held discussions with NARA staff and Contractors to obtain an understanding of
       the central receiving functions and physical security controls in the loading dock
       and warehouse areas;
   • 	 Reviewed pertinent documentation related to selected transactions to test the
       effectiveness of controls. For example, we reviewed the receiving report log,
       related purchase orders, Receipt for Property forms, shipping documentation,
       invoices and approval forms for a sample of deliveries made between April 2007
       and December 2007;
   • 	 Preliminary results of the 2007 physical inventory, received in March 2008
       (hereafter referred to as the 2007 inventory); and
   • 	 Employed judgmental sampling.

We attempted to verify the completeness and validity of the property information by
comparing transactions recorded in the receiving report log to entries in the property
management system. Because current data in the property management system was not
available due to the system upgrade process, we compared transactions recorded in the
receiving report log and property barcoded by the contractor to supporting documentation
maintained by Facilities and Personal Property Management Division (NAF) to be
recorded in the property management system.

The review was conducted at Archives II in College Park, MD and encompassed all
NARA programs at AIl. Our audit was performed from December 2007 through August
2008 and was conducted in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                                4

                           National Archives and Records Administration
                                                                           OIG Report No. 08-13


Audit Findings
Physical security controls are not effective in safeguarding property

Internal controls on the loading dock and in the warehouse are inadequate and can be
readily compromised. This condition results from the failure ofNARA officials to:
properly maintain functional closed circuit cameras and related equipment; restrict access
to the loading dock to designated individuals, store IT equipment in a secure area and
ultimately protect assets from pilferage. Office of Management and Budget (OMB)
Circular A-123, Management's Responsibility for Internal Control requires agencies to
establish controls that reasonably ensure that property and other assets are safeguarded
against waste, loss, unauthorized use or misappropriation. As a result government property
is at risk ofloss or pilferage. This is reflected in NARA's 2007 inventory which identified
36 percent oflT related equipment housed in NH's 'cage' as missing, with an original
acquisition cost of $367,436. An additional 22 percent of accountable property, with an
original acquisition cost of$176,008, stored outside the NH 'cage' in the NARA
warehouse was likewise identified as missing. The lack of sound internal controls also
compromises the ability to detect and subsequently investigate irregularities in a timely and
effective manner.

A) Cameras

Physical controls are not in place to ensure all loading dock areas can be monitored and
recorded by the security camera. A Space and Security Management Division (NAS)
official stated the servers that store digital video recordings have "intermittent coverage"
due to servers damaged by excessively high temperatures in the digital video recorder
rack room. Inspections performed by security guards indicate both cameras in the
loading docks area were not fully functional. The cameras did not tilt, pan, and zoom
properly. Cameras are tested and inspection reports are filled out by security guards once
during each shift or three times a day. NAS was unable to provide documentation
supporting their requests to fix the loading dock cameras.

We observed the view of the loading dock cameras in the security control base. One of
the cameras pans left but does not pan back to the right. This same camera does not tilt
up or down. The security guard at the control center radioed the security guard at the
loading dock and instructed him to move the camera back into position. We observed the
security guard using a long stick to move the camera back into position.

A Facilities and Personal Property Management Division (NAF) official, who started
working at NARA in 1998 stated "the cameras never worked" properly and that "no one
complained so nothing was done." Based on OIG inquiries during this audit the
contractor coordinated with NAF to replace the two cameras on the loading dock with
new dome protected cameras; this was accomplished on June 24, 2008.




                                                 5

                            National Archives and Records Administration
                                                                            OIG Report No. 08-13


B) Access Readers

Several doors within the loading dock and warehouse areas are not controlled by access
readers requiring a badge and authorization to enter those areas where property is
received and stored.

   •	   The back door to the loading dock processing room and the accountable property
        room do not have access readers. Any employee or contractor can access the
        loading dock area through the contractors administrative offices or the property
        processing room using the back corridor. The accountable property room is
        accessed with a key and only certain individuals have a key.
   •	   The four main loading dock bay rollup doors do not have access readers to restrict
        and account for              these        doors.




In addition, the number of people, 294 employees and contractors, that have 2417 or
between 4pm and 11pm access to the loading dock is excessive. This includes night
custodial contractors, whose custodial carts are stored in a locked room in the loading
dock area.

Furthermore, NARA does not have any policies and procedures to review access reader
reports for high risk areas on a routine basis.

C) IT Equipment Storage Area

Physical controls are not in place to
ensure IT equipment is stored in an
appropriately secure area. IT equipment
managed by the Office of Information
Services (NH) is stored in a separate
fenced cage within the Archives II
warehouse. However, the fenced cage is
open at the top and adjacent to shelving,
."u,"'-"·J'M .  to climb into the fenced
                                           rt:
                             a result, there
is the risk that items could be taken from
the fenced cage area. In fact, the 2007
inventory identifies 36 percent of IT
related equipment housed in NH' s fenced
warehouse as missing, with an original
acquisition cost of $367,439. For

                                                 IT Equipment Storage in NH Fenced Warehouse
                                                  b
                             National Archives and Records Administration
                                                                                    DIG Report No. 08-13


additional information on IT equipment stored in the warehouse see page 9.

Redacted pursuant to FOIA Exemption b(2)




                           Redacted pursuant to FOIA Exemption b(2)

Government Accountability Office's (GAO) Standards for Internal Control in the
Federal Government state an agency must establish physical controls to secure and
safeguard vuhierable assets.

During the conduct of the audit we were advised that NARA is transitioning to a new
access reader system and NAS already intends to add access readers to doors with
uncontrolled access in the loading dock and warehouse areas ..

Deficient internal controls (to include those that could be readily bypassed), when paired
with exposed high value equipment suchas computers and monitors established an undue
risk environment for NARA. This condition negates the prospects for timely theft
detection and successful resolution.


 ----------------------------------------------------------------------------------------------------------
------------------------ Redacted pursuant to FO IA Exemption b(2 )-----------------------------­
-----------------------------------------------------------------------------------------------------------


                                                     7

                                National Archives and Records Administration
                                                                                   OIG Report No. 08-13



   RECOMMENDATIONS

   1. 	 The Assistant Archivist of Administration should direct the removal of the key
        cylinder to the NARA warehouse and replace with a plug.

   2. 	 The Assistant Archivist of Administration should direct the installation of access
        card readers to the back door of the loading dock processing room, loading dock
        bay roll-up doors and the accountable property room.

   3. 	 The Assistant Archivist of Administration should direct NAS and related program
        offices to review on a weekly basis access reports of high risk areas such as the
        loading dock and warehouse for unusual activity.

   4. 	 The Assistant Archivist of Administration should direct NAF to move the night
        custodial equipment to an area outside the loading dock area.

   5. 	 The Assistant Archivist of Administration should take measures to ensure all
        servers storing DVR work consistently.

   6. 	 The Assistant Archivist of Administration should direct NH and NAF to fence in
        the top of the NH cage in the warehouse.

   7. 	 The Assistant Archivist of Administration should direct the installation of
        cameras in the warehouse to monitor accountable property in the warehouse.

   8. 	 --------------------------------------------------------------------------------------------------­
        ------------------ Redacted pursuant to FOIA Exemption b(2)--------------------------­


   9. 	 The Assistant Archivist of Administration should take measures to facilitate
        communication between NAS and NAF to ensure security ofNARA assets.

   Management Response:

   The Acting Assistant Archivist for Administration concurred with the
   recommendations.

Limited Accountability of Items Stored in the Warehouse

Physical controls are not adequate in securing accountable property in the warehouse
resulting in hundreds of thousands of dollars worth of accountable property identified as
missing. In addition, management controls over other property stored in the warehouse
and operated by contractors do not exist to ensure proper accountablility of government
property. These conditions exist because of the lack of internal control and oversight on
the part ofNARA over warehouse management. OMB Circular A-123, M~agement's



                                                    8

                               National Archives and Records Administration
                                                                           OIG Report No. 08-13


Responsibility for Internal Control requires agencies to establish controls that reasonably
ensure that property and other assets are safeguarded against waste, loss, unauthorized
use or misappropriation. These conditions result in an elevated risk that NARA assets
will be lost or pilfered and inventory will not be effectively managed.

NARA's warehouse at All is operated by contractors under NAF management except for a
fenced in area managed and operated by NH personnel (hereafter referred to as the NH
fenced warehouse). NH's fenced warehouse stOres accountable IT equipment and is
inventoried each year under NARA Directive ADMIN 201, Chapter 8, Part 3 and the
Property Managers Users Guide.

NARA's warehouse stores material and supplies such as bulk paper, packaging,
reproduction equipment supplies, office supplies, film and furniture. Based on the
contract (see Attachment 1):
    • 	 NARA is responsible for inventory management, accounting and document
        processing for NARA warehouse items.
    • 	 NARA will maintain the official inventory records for Government owned
        material managed by the contractor.
    • 	 Contractors operate the warehouse subject to contract requirements which
        include, but are not limited to receipt, inventory, storage, and material movement.
    • 	 Contractors are required to conduct an annual wall to wall inventory of the
        NARA warehouse of all Government property stored by the contractor.

In addition to materials and supplies, NARA stores accountable property recorded in
NARA's property system for program Property Accountable Officers (PAO's) and
accountable property to be surplused in the NARA warehouse. Accountable property is
inventoried each year by PAO's under NARA Directive ADMIN 201, Chapter 8, Part 3
and the Property Managers Users Guide.

    1. 	 NH Accountable IT Property stored in NH Fenced Warehouse

       As stated earlier, physical controls are not in place to ensure IT equipment
       is stored in an appropriately secure area for IT equipment managed by NH.
       The NH fenced warehouse is a fenced cage, open at the top and adjacent to
       shelving, making it easy to climb into the fenced area. The results of the
       2007 inventory identifies 36 percent of the NH accountable property stored
       in the NH fenced warehouse as missing, with an original acquisition cost of
       $367,439. We attribute this in part to a lack of physical controls to restrict
       access to property and the fact that no other periodic independent validation
       and verification processes occur which could identify potential pilferage
       more timely. The PAO for NH agrees that he lacks control of the
       accountable property because the fenced c.age is not secure. In addition,
       the P AO believes many items have been sent out to other program offices
       and not properly updated in NARA's property system to reflect the
       movement of property. NH is in the process of attempting to locate
       missing items.


                                                 9
                            National Archives and Records Administration
                                                                      OIG Report No. 08-13




                  NH Missing Accountable Property
                    (Inside NH Fenced Warehouse)


                                                        Missing         Acquired       Quantity
                                                     IT Equipment         Cost

                                                 PRINTERS               $158,217             41

                                                 SERVERS                 118,528             17

                                                 TAPE DRIVES             33,588              5

                     Inventoried IT              WORK STA nON            20,000              1
                    Equipment, 132
                      items, 64%,                SWITCHES                15,348              3
                      $1,223,334
                                                 COMMUNICAnONS           10,270              2
                                                 EQUIPMENT
                                                 RACKS                    8,494              2
                                                 LAPTOPS                  2,994              2
                                                   Total                $367,439             73


2. Property Stored in NARA Warehouse operated by contractors

   NARA has not established warehouse standard operating procedures and does not
   have a method of accounting for items stored in the warehouse, other than manual
   stock sheets for bulk purchases of paper, microwaves and chairs. Other items
   stored in the warehouse include accountable property, monitors, pictures, rugs,
   systems furniture and more. According to NAF officials, the warehouse "serves
   more as an overstock and temporary storage space than a true warehouse."
   Without a system of accountability established by NARA, contractors are unable
   to fulfill their contractual obligation of conducting an annual inventory of other
   property in the warehouse. In addition, because no inventory of other property
   exists, NARA effectively waives their right to be reimbursed (replacement cost,
   Government administrative and labor cost to purchase missing item) by the
   contractor for any missing items. Further, NARA is paying for services outlined
   in the contract but not rendered. A lack of internal control and oversight on the
   part ofNARA over warehouse management has occurred resulting in a risk that
   NARA assets will be lost or pilfered.

   GAO's Standards/or Internal Control in the Federal Government state an agency
   must establish physical controls to secure and safeguard vulnerable assets. In
   addition, management is responsible for developing the detailed policies,


                                           10
                       National Archives and Records Administration
                                                                        OIG Report No. 08-13


   procedures, and practices to fit their agency's operations and to ensure that they
   are an integral part of operations.

   The results of the 2007 inventory identifies 22 percent of the accountable property
   stored in the NARA warehouse (outside the NH fenced warehouse) as missing,
   with an original acquisition cost of $176,008.

          Accountable Property stored in NARA Warehouse 

                  (outside the NH fenced Warehouse) 



                                                           Missing          Acquired     Quantity
                                                        IT Equipment          Cost
                                                  AUDIONISUAL               $60,000            2
                                                  EQUIPMENT
                                                  FITNESS EQUIPMENT           5,000            1

                                                  FOOD PREPARATION            3,000            1
                      Inventoried                 LAPTOP                      1,000            1
                     Accountable
                  Property, 28 items,             SECURITY EQUIPMENT          5,000            1
                         78%,
                      $309,911                    DIGITAL CAMERA              2,008            1
                                                  WORKSTATION                100,000           1
                                                   Total                    $176,008           8



RECOMMENDATIONS

10. The Assistant Archivist of Administration should direct NAF to develop and
    implement NARA Standard Operating Procedures for Warehouse Operations
    ensuring proper segregation of duties are adhered to over the annual inventory and
    to include procedures for periodic unannounced counts of property stored in the
    warehouse.

11. The Assistant Archivist of Administration should direct NAF to implement a
    system of accounting for property stored in the warehouse.

12. The Assistant Archivist of Administration should direct NAF and the contractors
    to conduct an annual wall to wall inventory of the All warehouse after
    recommendations 10 and 11 have been accomplished. The NAF staff performing
    the inventory should have no access to the system accounting for property stored
    in the warehouse.

13. The Assistant Archivist of Administration, with assistance from affected units
    should develop additional safeguards to adequately protect accountable property

                                             11
                         National Archives and Records Administration
                                                                                  OIG Report No. 08-13


        stored in the warehouse outside the custody of the Property Accountable Officer.

    Management Response:

    The Acting Assistant Archivist for Administration concurred with the 

    recommendations. 



Policies and Procedures Need Improvement and Updating

NARA's policies and procedures are outdated and not aligned with the various functions
encompassing central receiving. A management official stated that they have not updated
NARA policies and procedures due to lack of staffresources and other priorities such as
converting to the new property management system. GAO requires managers to develop
detailed policies and procedures, and to ensure the policies and procedures are an integral
part of agency operations. Inaccurate policies and procedures and untrained staff
increase the risk that vulnerable assets are not adequately secured and safeguarded and
increase the risk that errors would not be prevented or detected by management.

NARA Policies and Procedures need updating.
  (A) NARA's policy and procedures do not include requirements for NAF to 

      participate in the acquisition planning of propert/. 

  (B) NARA's Standard Operating Procedures (SOP) for the Receipt of Government
      Owned Property and Supplies does not adequately cover procedures for:
      • Documenting discrepancies with a shipment;
      • Documenting the delivery date,
      • Dating the acceptance of goods ordered and received.
      • Ensuring the requesting office gets a copy of the GSA Form 1025.
  (C) NARA policy and procedures do not include clear guidance on handling bulk
      purchases 5 (i.e., monitors, desktop computers); component and spare parts of
      systems (i.e., items that can not be used alone, servers, monitors, desktop
      computers, keyboards); government property in the possession of contractors6 ; or
      recording the proper delivery and acceptance dates on the Invoice/lntra­
      governmental Payment and Collection (IPAC) Approval Form.
  (D) NARA policy and procedures do not include clear guidance on training 

      requirements for property officials. 

  (E) NARA Procurement Guide refers to the process of recording receiving reports in
      NARA's old financial system and using GSA Form 3025, Receiving Report,

4 GSA's Federal Personnel Property Desk Reference states the Property Management Team must
participate in acquisition planning with Program, Acquisition and Finance personnel.
5 Federal Accounting Standards Board (FASAB) Statement of Federal Financial Accounting Standards No.
6, Accounting for Property, Plant, and Equipment states each entity should establish its own threshold as
well as guidance on applying the threshold to bulk purchases.
6 FASAB Statement of Federal Financial Accounting Standards No. 11, Amendments to Accounting for
Property, Plant, and Equipment - Definitional Changes, further specifies property and equipment in the
possession of or acquired directly by the Govermnent and delivered or otherwise made available to a
contractor for use in accomplishing a contract is collectively referred to as 'Govermnent property'.


                                                    12 

                                National Archives and Records Administration
                                                                          OIG Report No. 08-13


       which are currently not being used.
   (F) NARA guidance does not adequately define sensitive items that should be held
       accountable by NARA. There is equipment with an estimated useful life of two
       or more years, costs less than $3,000, is small in nature and easily pilferable, but
       is not considered accountable property. For example, digital lens for cameras,
       digital video recorders, video projectors, scanners, servers, handheld devices,
       computer processing units (CPU), routers, switches and firewalls may cost less
       than $3,000, are usually part of a larger system, are small and/or easily to pilfer
       but are not accounted for under the current guidance.

GAO's Standards/or Internal Control in the Federal Government states, management is
responsible for developing the detailed policies, procedures, and practices to fit their
agency's operations and to ensure that they are built into and an integral part of
operations. Information should be recorded and communicated to management and
others within the entity, who need it, and in a form and within a time frame, which
enables them to carry out their internal control and other responsibilities. On April 15,
2008, OMB issued new guidance (OMB Memorandum 08-18) specific to developing and
implementing guidance for documenting independent receipt, acceptance, and
inventorying of items obtained with a purchase card which are considered sensitive and
pilferable property.

Management has not updated NARA policies and procedures due to lack of staff
resources and focused upon other priorities such as converting to the new property
management system. NARA switched to a shared service provider for financial services
in 2006, but did not document changes in controls in its internal policies and procedures
or remove old procedures from the NARA policies on its intranet. In addition, NARA's
SOP for the Receipt of Government Owned Property and Supplies developed in April
2007 is not available on the NARA intranet and was not reviewed by affected offices
such as Financial Services Division (NAB) or Acquisition Services Division (NAA).
Inaccurate policies and procedures and untrained staff increase the risk that vulnerable
assets are not adequately secured and safeguarded and increase the risk that errors would
not be prevented or detected by management.

   RECOMMENDATIONS

    14. (a) The Assistant Archivist of Administration should update and align its various
        policies and procedures relating to the receiving process and eliminate out-of-date
        policies and procedures. Affected policies and procedures include the NARA
        Procurement Guide, NARA's Standard Operating Procedures Receipt of
        Government Owned Property and Supplies, NARA's Property Managers Users
        Guide. The following key controls should be added to NARA policy and
        procedures:
        • 	 Ensuring NAF is included in approving procurements for accountable
            property
        • 	 Documenting discrepancies with a shipment;
        • 	 Documenting the delivery date,


                                               13
                           National Archives and Records Administration
                                                                       OIG Report No. 08-13


   • 	 Dating the acceptance of goods ordered and received.
   • 	 Ensuring the requesting office gets a copy of the receiving report
   • 	 Ensuring proper delivery and acceptance dates are recorded on the 

       Invoice/IPAC Approval Form. 

   • 	 Handling bulk purchases (i.e., monitors, CPU's, shelving)
   • 	 Handling component parts or replacement parts of systems (i.e., items that can
       not be used alone, servers, monitors, and CPU's); and
   • 	 Handling government property in the possession of contractors or purchases
       by contractors.
   • 	 Receiving and accepting responsibilities for CORs, P AOs, requesting office
       point of contact and invoice approvers. .
   (b) In addition, draft policies and procedures shall be reviewed by all program
   offices within NA. Finally updated policies and procedures should be posted on­
   line for easy reference by NARA staff.

15. The Assistant Archivist of Administration should change the description of
    sensitive items to include and account for CPU's, servers, handheld devices, small
    electronics because of the susceptibility to loss or misuse in addition to operation
    and security considerations for NARA data stored on certain items.

16. The Assistant Archivist of Administration should change the description of
    sensitive items to include and account for digital lens, digital video recorders,
    video projectors, routers, switches and firewalls costing less than $3,000, are
    usually part of a larger system, are small and/or easily to pilfer.

17. The Assistant Archivist of Administration should ensure staff with property
    responsibilities are trained in accordance with GSA's Interagency Committee on
    Property Management defined core competencies for the Personal Property
    Management Professional. Each level of a property official must complete initial
    training and periodic refresher training to ensure they are competent to complete
    the duties of a property official.

18. The Assistant Archivist of Administration should develop and implement specific
    guidance for documenting independent receipt and acceptance of items obtained
    with a purchase card, including: (1) purchases of a de minimis amount and (2)
    responsibilities of the approving official or supervisor to ensure items purchased
    were actually received in accordance with OMB Memorandum 08-18.

19. The Assistant Archivist of Administration should develop and implement specific
    guidance for inventorying items obtained with a purchase card which are
    considered to be sensitive and pilferable property (e.g., handheld devices, small
    electronics) and are easily converted to personal use in accordance with OMB
    Memorandum 08-18.
Management Response:

The Acting Assistant Archivist for Administration concurred with the


                                            14
                        National Archives and Records Administration
                                                                          OIG Report No. 08-13


   recommendations.

Receiving Report Log and GSA Form 1025, Receipt for Property are Ineffective

The Receiving Report Log and GSA Form 1025, Receipt for Property (see Attachment
2), maintained by the contractors includes errors and omissions thereby negating the
effectiveness of the control tool. NAF officials stated that NARA's oversight ofthe
receiving report log consisted of confirming the receiving report number from the GSA
1025 form to the receiving report log. Oversight of the receiving report log did not
include confirming details of the receipt of goods or determining whether goods have
been delivered timely. Inaccurate content of the GSA Form 1025 defeats an inherent
control mechanism and places NARA property at risk of loss and pilferage. It also
adversely impacts the distribution of the property to users. Likewise if data on GSA
Form 1025 is not accurate the financial and physical accountability records of property
will not be accurate.

The Receiving Report Log maintained by the contractors is used to log in the daily
deliveries received at the loading dock based on information documented on GSA Form
1025. The purpose of the log is to sequentially account for all GSA Form 1025. The
Receiving Report Log effectively accounts for all sequentially numbered GSA Form
1025's, however we found errors in a sample of entries in the log and/or GSA Form
1025's when compared to supporting documentation, to include:

          •    incorrect date received at the dock
          •    incorrect date processed
          •    incorrect name of individual who received and inspect goods
          •    incorrect vendor name
          •    incorrect purchase order number
          •    incorrect quantity received
          •    incorrect name of individual who accepted assets
          •    no support for date delivered/accepted

The NARA SOP for Receipt of Government Owned Property and Supplies states a
GSA Form 1025, Receipt for Property, will be used to document the receipt of all items
delivered to Archives II, and a log will be maintained for all GSA Form 1025's issued.

The contractor stated mistakes were due to clerical errors, the process of copying and
pasting information from the previous line in the receiving report log or illegible
handwriting. In addition, contractors stated they are not getting purchase orders to
properly plan for the arrival of deliveries and purchase orders obtained were not complete
and contain vague descriptions of property ordered which can cause delays in the
delivery of property to end-users. Inaccurate content ofthe receiving report defeats an
inherent control mechanism and places NARA equipment at risk of loss and pilferage.

If data on the GSA Form 1025, such as the purchase order number, description, quantity
received, amounts, name of vendor, date material was received, are not accurate the


                                               15 

                           National Archives and Records Administration
                                                                           OIG Report No. 08-13


financial and physical accountability records of property will not be accurate. In
addition, shipments may be delayed due to inconsistent delivery address and lack of
information regarding loading dock hours on purchase orders. Delivery of goods
received at the loading dock to the program offices may be delayed due to incomplete
purchase orders and vague descriptions of items.

In January 2008, contractors and NAF officials met and implemented new procedures to
date stamp all deliveries with the date of actual receipt and record the actual delivery date
in the receiving report log. In May 2008, NARA started using NA Form 5025, Material
Handling Document (see Attachment 3). NAF revised the receiving report log, ordered
scanners to electronically capture serial numbers and bar codes to eliminate clerical
errors, and created electronic files of supporting documents for each purchase order.
NAF uses the log to ensure data on the receiving reports for accountable property,
shipping documents and purchase orders are in agreement. Deliveries after January 2008
were not included within the scope of our audit so we cannot comment as to whether
these new procedures are effective.

   RECOMMENDATIONS

    20. The Assistant Archivist of Administration should direct NAF to periodically test
        the accuracy of information recorded on GSA Form 1025 or any other comparable
        form used as the receiving report and the Receiving Report log and determine the
        timeliness of delivery of goods from the loading dock to the program office.

    21. The Assistant Archivist of Administration should direct NAA to develop a
        method ensuring complete purchase orders are provided to the All loading dock.
        This will help the loading dock plan for large or multiple deliveries and match the
        goods to the proper purchase order.

    Management Response:

    The Acting Assistant Archivist for Administration concurred with the
    recommendations.

NARA Lacks an Adequate Acceptance Process

NARA's receiving report process does not adequately support the acceptance of goods
ordered and received. This condition results from the application of inconsistent and
inadequate NARA policies and procedures as established by NARA management. The
Prompt Payment Act requires agencies to ensure receipt of goods and services is properly
recorded at the time of delivery of goods and acceptance is executed as promptly as
possible. In addition, Federal Acquisition Regulations require invoice payments to be
supported by a receiving report or any other Government documentation authorizing
payment. As a result of the aforementioned deficiencies, vendors on occasion were not
being paid in accordance to the Prompt Pay Act and in some cases vendors have been
paid late without interest.



                                                16
                            National Archives and Records Administration
                                                                          OIG Report No. 08-13



During the scope of our audit NARA used GSA Fonn 1025, Receipt for Property, which
does not adequately document the certification of acceptance date as cited in the NARA
SOP. As well, program offices are not provided copies of GSA Fonn 1025, thus the
proper dates are not carried forward to the Invoice/IPAC Approval Fonn for
authorization to pay the invoice.

NARA's SOP for the Receipt of Government Owned Property and Supplies states that
the GSA Fonn 1025 will be used to document the receipt of all items, including the date
received, and acceptance will be acknowledged by signing and dating GSA Fonn 1025.
However GSA Fonn 1025 does not provide a space for the acceptor to record a date and
the signature sometimes only acknowledges that the program office received the property
from the loading dock, and not necessarily acceptance ofthe property. NARA guidance
does not address the relationship of GSA Fonn 1025, Receipt for Property, for non-credit
card purchases, to the Invoice/IPAC Approval Fonn, which documents the certification
of goods received and accepted for authorization to pay the invoice.

Consequently, invoice approving officials are not recording the proper dates on the
Invoice/IPAC Approval Fonn as they commonly record the date the end users received
the goods or the date the user received the invoice, rather than the delivery date and
acceptance date. As a result, vendors are not being paid in accordance to the Prompt Pay
Act and in some cases vendors have been paid late without interest.
    • 	 We have seen evidence of vendors being paid late because improper dates were
        used on the Invoice/IPAC Approval Fonn. We detennined that 5 out of 17
        invoices were paid late because the incorrect delivery date was recorded on the
        Invoice/IPAC Approval Fonn for invoices related to a judgmental sample of
        receiving reports dated between April 2, 2007 and December 3, 2007.
    • 	 In one instance, an invoice was not paid because acceptance had not occurred.
        Acceptance occurred 92 days after the property was received at NARA. The
        Prompt Pay Act does not allow delaying payment of invoices because acceptance
        has not occurred. If agency controls do not ensure that acceptance occurs in a
        timely manner then the agency may owe the vendor interest when the invoice is
        paid.

   RECOMMENDATIONS

   22. The Assistant Archivist of Administration should implement controls to ensure
       receiving report data is captured in accordance with the Prompt Pay Act and the
       FAR, and accurately presented to NARA's financial system for processing.
       These controls should include, but not be limited to:
       • 	 Use a fonn that better facilitates the receiving report data requirements, i.e.,
           GSA Fonn 3025, Receiving Report.
       • 	 The point of contact (POC) or contractor officer representative (COR) on the
           purchase order should verify the infonnation recorded by the contractors and verify
           the items and quantity of items received agree with corresponding purchase order.
           The POC or COR should certify acceptance by signature and date that the goods


                                               17
                           National Archives and Records Administration
                                                                                     OIG Report No. 08-13


            received confonn to the purchase order requirements. The POC or COR should
            forward a copy of the fonn to the invoice approver to ensure proper dates are
            forwarded to the financial system, for proper payment of the invoice.

   Management Response:

   The Acting Assistant Archivist for Administration concurred with the
   recommendations.

NAF Property Records are Incomplete

We found five instances where NAP did not have documentation supporting accountable
property, acquired at a cost of$22,615. NARA's property system is based on data from GSA
Fonn 1025 which is hand carried by a contractor to NAP. NAP has been maintaining a
folder of GSA Fonn 1025's to be recorded in NARA's property management system since
March 2007 when use of the property management system has ceased due to technical
difficulties during a software upgrade. GAO requires documentation and records to be
properly managed and maintained. Manual processes increase the risk that property may
have been acquired but not recorded in NARA's property system.

We compared contractor records of items barcoded to records maintained by NAF for
input into NARA's property system. NAF did not have four GSA Fonn 1025's
accounting for five pieces of accountable property, valued at $22,615.

Table 3
Receiving Reports not in NAF Records, as of January 17, 2008
Receiving              Barcode          Purchase Order
Report #      Date     Number              Number              Description                     Amount
   1621     9120107    1003726       credit card               Laptop                         $1,905.00
   1621     9/20107    1003745       credit card               Laptop                         $1,905.00
                                                               Fiber        switch     over
   1623     9/20107    1003744   c   NAMA--07-F-0108           $3,000                         $4,010.00
   1637     9/24/07    1003727   c   NAMA-NW -07 -0015         Printer over $3,000            $4,500.00
                                                               Switch over $3,000 part
   1862     10/30107   1003819   c   NAMA--07-F-0120           of larger acquisition          $10,294.62
                                                               Total                          $22,614.62
c = corrected and recorded in NARA's Property System, as of March 14,2008


NARA's SOP for the Receipt of Government Owned Property and Supplies states NAP
will maintain the files in a fonnat that will provide an audit trail both by GSA Fonn
number and bar code number. The NARA's property management system record will
include references to both the GSA fonn and the Obligating document. However, this
guidance is not followed.



                                                   18
                             National Archives and Records Administration
                                                                                        OIG Report No. 08-13


This condition occurred because GSA Form 1025's are hand carried by a contractor to
NAF for recording into the property system and no reconciliation between contractor
records and NAF records were performed to identify differences. NAF has not recorded
information in NARA's property system since March 2007 because the property
management system is being upgraded. In addition, NAF had not established a filing
system satisfying the NARA SOP requirements. Manual processes increase the risk that
accountable property may have been acquired but supporting documentation was not
provided to NAF.

    RECOMMENDATIONS

    23. The Assistant Archivist of Administration should, upon implementation of
    recommendation #16, use the same report to reconcile data to the receiving report log
    and property management system to ensure accountable property received is
    accurately recorded in the property management system on a monthly basis.

    24. The Assistant Archivist of Administration should direct NAF to develop a filing
    system of assets that can easily be linked to procurement (purchase orders) and
    financial related records (receiving reports and invoices).

    25. The Assistant Archivist of Administration should seek to acquire subsystems that
    capture or generate receiving report data and property management information and
    be capable of interfacing with other financial and mixed systems 7 . The goal of all
    system interfaces is to:
        • Promote a single point of entry to populate the property management database
        and all databases with which the property management system interfaces at the
        same time.
        • Ensure audit trails of all system transactions are captured.
        • Facilitate ease of reconciliation between systems to ensure data accuracy.

    Management Response:

    The Acting Assistant Archivist for Administration concurred with the
    recommendations.




7 As part of the Financial Management Line of Business initiative, in July 2008, Financial Systems Integration
Office (FSIO) in cooperation with OMB issued the Federal Financial Management Standard Business Process
Document covering Payment Management Standard Business Processes that reflect best practices in an electronic
environment and sound internal controls from requisition to payment. The Financial Systems Integration Office
(FSIO) within the General Services Administration was formerly known as the Joint Financial Management
Improvement Program (JFMIP).


                                                       19
                                  National Archives and Records Administration
                                                                                       OIG Report No. 08-13


                                                                                              Attachment 1



The labor support requirements must not exceed an average of four hours per workday. All duties
associated with this requirement will originate and end at the Archives I andlor Archives II buildings
loading docks.

68. WAREHOUSING - NARA OPERATIONS. The Government stores approximately 90 days of
predominately consumable materials and supplies at Archives II to support the daily Government
operations. Also included are bulk paper; packaging; reproduction equipment supplies; office supplies;
and laboratory supplies including film, photographic supplies, photographic chemicals, systems furniture,
excess property waiting disposal instructions, and other necessary supplies .. Government property used
herein refers to Government owned materials and supplies intended for Government use and does not
include property furnished to the Contractor for the Contractor's use during the performance of this
Contract. The Contractor must manage and provide all warehousing operations for Government property.

    a.   Warehouse operations include, but are not limited to receipt, inventory, storage, material
         movement, stock issue, shipment, and disposal. The COR or warehouse Contracting
         Representative Assistant will be responsible for identifying' the additional warehouse
         requirements to the Contractor warehouse supervisor.
    b.   All material movement request documents will be prepared by NARA and furnished to the
         Contractor for appropriate action. The Contractor must perform the indicated action, and sign
         and return the document to the NARA warehouse COR Contracting Representative Assistants.
         Contractor personnel must be familiar with NARA procedures relating to receiving, inventory,
         warehouse operations, and shipping functions. Contractor warehouse personnel will require
         unescorted access to most Archives II spaces, except for limited access spaces, for making
         issues, material handling, pick-up of shipments, etc.

68.1 INVENTORY MANAGEMENT. The Contractor must manage and provide warehouse operations for
all NARA warehouse items. Inventory management, accounting, and document processing for the NARA
warehouse items will be the responsibility of the Government. NARA will maintain the official inventory
records for Government owned material managed by the Contractor using DYNAMICS Inventory
Management System (IMS). Accountable Government property will be managed using NARA's Property
Accounting System (PAS). The Contractor must be familiar with the use of automated inventory tracking
systems and must provide inventory documentation to the Government to support all accountable and
non-accountable material Government inventory systems. Material must be maoaged on a first-in, first­
out (FIFO) basis. All material and documentation for the Govemment property and the Contractor
property warehouse operations must be kept physically separate. The Contractor must maintain a formal
filing system for all Government items issued including transaction documentation.

68.1.2 Annual Inventory. The Contractor must conduct an annual wall to wall inventory of the NARA
warehouse in August of each ·contract year of all Government property managed and stored by the
Contractor. Government personnel may accompany the Contractor personnel during the inventory to
verify the accuracy, the methods used, and completeness of the inventory. The Contractor must conduct
the inventory in accordance with the procedures in the NARA Warehouse SOP. The Contractor must
conduct causative research to determine potential losses or gains of Government assets. The Contractor
must replace or reimburse the Government for replacement cost (includes Government administrative
and labor cost to purchase missing item) of any missing items by September 30 of each year.

68.2 STORAGE. The Contractor must determine material storage locations in accordance with the NARA
SOP and COR direction. The Contractor must receive and store material (within two days of receiving
materials); indicate the action taken on the receipt, issue, and storage document; and enter the
transaction in the IMS system. The Contractor will be responsible for looking up the stock location in the
IMS system and storing all material in the deSignated IMS system location. The Contractor must adhere
to stack height; box orientation, bin capacity, and other storage restrictions to prevent damage to stored
material. The Contractor will be responsible for following normal supply practices such as stock rotation
and First-In-First-Out (FIFO) material processing. The Contractor must relocate material and combine
locations as necessary for good inventory management.




                                                     20 

                                National Archives and Records Administration
                                                                                           OIG Report No. 08-13


                                                                                                         Attachment 2



                 GENERAL SERVICES ADMINISTRATION                     IH:s..;£~Vll1 ~J.{OM fU!ria·:r,!m·~a;aJ   tm/t/


                     RECEIPT FOR PROPERTY
   STOCK                                                                                           UNIT
                                   DESCRIPTION                       QUANTITY UNIT                                     COST
   NUMBER                                                                                          PRICE




  IT IS UND ERSTOOD THAT I AMPERSONAlL¥ ACCOUNTABLE FORTHEf'ROPERTV LISTED ABOVE ANDTHATI SHAll BE 

  HELD FINANCIALLY LIABLE FOR LOSS OR DAMAGE UNLESS OTHERWISE RElIEVEDBV APPROPRIATE SURVEY ACTION. 





GENERAL SERVtCES; ADM!N1STRArtON




                                                 21
                            National Archives and Records Administration
                                                                                        OIG Report No. 08-13


                                                                                              Attachment 3

                          MATERIAL HANDLING DOCUMENT
                               RECEIPT - ISSUSANCE - ACCEPTANCE

Purchase Order Number:                                                     Vendor:

Mode of Delivery: UPS     0    FEDX   0   DHL   0    GBL 0                 Tracking/GBL Number:



Print Name/Shipping & Receiving Personnel                                  SignatureiDate



Print NamelProperty Specialist                                             SignatureiDate

                    ---- This area is for use by loading dock (LB&B) personnel only! ---­

Item Description      QtyOrdered       Qty Received      QtyB/O              Serial #       Barcode #




Discrepancies? Yes    0   No   0
If yes, describe:


Shipping & Receiving/
Property Specialist Issued by: _ _ _ _ _ _ _ _ __
                                   Print Name                              SignatureiDate

Package Marked for:                                                        Room Delivered to:

Package Accepted by: _ _ _ _ _ _ _ _ _ _ _ __
                        Print Name/Organization                            SignatureiDate




NATIONAL ARCHIVES AND RECORDS ADMINISTRATION                                                 NA 5025 (04-08)



                                                       22
                                   National Archives and Records Administration
                                               OIG Report No. 08-13


                                                     Attachment 4




                    23
National Archives and Records Administration
                   National Archives and Records Administration
                                                                                         8601 Adelphi Road
                                                                        College Park, Maryland 20740-6001


Date:
              SEP 292008

To:        OIG

From:      NA

Subject:   OIG Draft Report No. 08-13, Audit ofNARA's Central Receiving Function


           Thank you for the opportunity to comment on the Draft Report No. 08-13: Audit ofNARA's
           Central Receiving Program. We appreciate the auditor's acceptance of some minor word
           changes within the report and have no further comments.

           We concur with all recommendations made in this draft report as amended based on our
           discussions with the auditor.

           Please note that actions to satisfy some of the recommendations are already underway. If you
           have any questions concerning these comments, please contact me via e-mail or telephone,
           - 6 ( ( ) -:-- ) at 301-837- 1- "


           g~e, din-naLJ
           ADRIENNE C. THOMAS
           Assistant Archivist for Administration

           Attachment




                                 NARA 's web site is http://www.archives.gov
